LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 20, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-123:

SHARONELL FULTON, ET AL. V. CITY OF PHILADELPHIA,
PENNSYLVANIA, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Organizations Serving
LGBTQ Youth on August 20, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioners and Respondents:
PETITIONERS:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
202-955-0095
mrienzi@becketlaw.org
RESPONDENT INTERVENOR
SUPPORT CENTER FOR CHILD
ADVOCATES AND PHILADELPHIA
FAMILY PRIDE:
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
212-519-7815
lcooper@aclu.org

RESPONDENTS CITY OF
PHILADELPHIA, DEPARTMENT OF
HUMAN SERVICES FOR THE CITY OF
PHILADELPHIA, PHILADELPHIA
COMMISSION ON HUMAN
RELATIONS:
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202-637-5528
neal.katyal@hoganlovells.com

This service was effected by depositing three copies of the Brief of Amici Curiae
Organizations Serving LGBTQ Youth in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of August 2020.

